BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Respondents' Brief in Opposition in 20-1349,
Rachel Threatt v. Ryan Thomas Farrell, et al., was
sent via Three Day Service to the U.S. Supreme Court,
and 3 copies were sent via Three Day Service, and email to the following parties listed below, this 12th day
of July, 2021:
Theodore Harold Frank
Hamilton Lincoln Law Institute
1629 K Street NW, Suite 300
Washington, DC 20006
(703) 203-3848
tfrank@gmail.com

Counsel for Petitioner
Deepak Gupta
Counsel of Record
Gupta Wessler PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036
(202) 888-1741
deep ak@guptawessler.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

, (800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
' 1300 I Street, NW, Suite 400E
Washington, DC 20005

N. Albert Bacharach Jr.
N. Albert Bacharach, Jr. P.A.
4128 NW 13th Street
Gainesville, FL 32609-1807
(352) 378-9859
CourtDocuments@att.net
Counsel for Respondent
Estefania Osorio Sanchez
Robert William Clore
Bandas Law Firm, PC
500 North Shoreline Blvd, Suite 1020
Corpus Christi, TX 78401
(361) 698-5200
rclore@bandaslawfirm.com
Counsel for Respondent
Amy Collins
Jona than D. Hacker
O'Melveny & Myers LLP
1625 Eye Street, N.W.
Washington, DC 20006
(202) 383-5300
jhacker@omm.com
Counsel for Respondent
Bank of America, N.A.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 12, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~.L

/2 ,
r,

Notary Public ~
[seal]

AMY TRIPLETT MORGAN

Attorney at Law
Notary Public, State of Ohio
My Commission Has No Expiration
Date. Section 147.03 O.R.C.

